CERTIFICATE OF SERVICE
NO. TBD
David Ehrman
Petitioner(s)
v.
Cox Communications, Inc. et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the DAVID
EHRMAN PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Richard R. Patch
Coblentz Patch Duffy & Bass, LLP
One Montgomery Street
Suite 3000
San Francisco, CA 94104
(415) 391-4800
rrp@coblentzlaw.com
Counsel for Cox Communications, Inc. et al.

Lucas DeDeus

December 16, 2019
SCP Tracking: Soderstrom-3 Park Plaza, Suite 100-Cover White

